<html>
<title> - BUILDING OPERATION READINESS IN FOREIGN AFFAIRS AGENCIES</title>
<body><pre>[Senate Hearing 108-481]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-481

        BUILDING OPERATION READINESS IN FOREIGN AFFAIRS AGENCIES

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED EIGHTH CONGRESS



                             SECOND SESSION



                               __________

                             MARCH 3, 2004

                               __________



       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




94-063              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Binnendijk, Hon. Hans, Roosevelt Chair of National Security 
  Policy, National Defense University, Washington, D.C...........    16
    Prepared statement...........................................    18

Dobbins, Hon. James, Director, International Security and Defense 
  Policy Center, RAND, Washington, D.C...........................     4
    Prepared statement...........................................     6

Hamre, Hon. John, President and CEO, CSIS, Washington, D.C.......     9
    Prepared statement...........................................    11

Lugar, Hon. Richard G., U.S., Senator from Indiana, Chairman, 
  U.S. Senate Committee on Foreign Relations.....................     1

                                 (iii)

  

 
        BUILDING OPERATION READINESS IN FOREIGN AFFAIRS AGENCIES

                              ----------                              


                        Wednesday, March 3, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SH-419, Hart Senate Office Building, Hon. Richard G. Lugar, 
chairman of the committee, presiding. Present: Senator Lugar.

OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S., SENATOR FROM 
                            INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Over the past decade the United States has undertaken a 
series of post-conflict stabilization and reconstruction 
operations that have been critical to United States national 
security. In the Balkans, Afghanistan, and Iraq, the United 
States has cobbled together plans, people, and resources with 
the Defense Department in the lead.
    The efforts of those engaged have been valiant, but these 
emergencies have been complex and time sensitive. Our ad hoc 
approach has been inadequate to deliver the necessary 
capabilities to deal speedily and efficiently with complex 
emergencies.
    Last week Senator Biden and I introduced Senate Bill 2127, 
the Stabilization and Reconstruction Civilian Management Act. 
The purpose of this bill is to establish a more robust civilian 
capacity to respond quickly and effectively to post-conflict 
situations or other complex emergencies.
    International crises are inevitable, and in most cases 
United States national security interests will be threatened by 
sustained instability. The war on terrorism necessitates that 
we not leave nations crumbling and ungoverned. Our tolerance 
for failed states has been reduced by a global war against 
terrorism. We have already seen how terrorists can exploit 
nations afflicted by lawlessness and desperate circumstances. 
They seek out places to establish training camps, recruit new 
members, and tap into a global black market in weapons 
technology.
    In this international atmosphere, the United States must 
have the right structures, personnel, and resources in place 
when an emergency occurs. A delay in our response of a few 
weeks, or even a few days, can mean the difference between 
success and failure. As a nation, we have accepted the 
stabilization and reconstruction missions in the Balkans, 
Afghanistan, and Iraq, but we need to go a step further and 
create structures that can plan and execute strategies to deal 
with future emergencies.
    While recognizing the critical challenges that our military 
has undertaken with skill and with courage, we must acknowledge 
that certain non-security missions would have been better 
served by a civilian response. Our post-conflict efforts 
frequently have had a higher than necessary military profile. 
This is not the result of a Pentagon power grab or 
institutional fights. Rather, the military has led post-
conflict operations primarily because it is the only agency 
capable of mobilizing sufficient personnel and resources for 
these tasks. As a consequence, military resources have been 
stretched, and deployments of military personnel have been 
extended beyond expectations. If we can improve the 
capabilities of the civilian agencies, they can take over many 
of the non-security missions that have burdened the military.
    The Senate Committee on Foreign Relations embarked on a 
bipartisan experiment beginning in late 2003, assembling an 
impressive array of experts from inside and outside of our 
government to provide advice on how best to achieve this goal. 
This ``Policy Advisory Group'' held extensive discussions in 
which Senators, group members, and invited experts spoke 
frankly about their ideas to improve the United States response 
to post-conflict reconstruction problems and complex 
emergencies. The bill that Senator Biden and I have introduced 
draws heavily on those discussions. I believe that we need 
structural change, accomplished through legislation, to 
guarantee improvements in our capabilities.
    Although Senator Biden and I have tried to incorporate into 
the bill as many of the insights of the group as possible, we 
recognize that not every participant will agree with each 
provision in the bill. This is not surprising, given that one 
of our goals in constructing the group was to guarantee a 
diverse set of perspectives. Nevertheless, there were several 
consensus themes that developed from the group's discussion. 
They were:
    First of all, the civilian foreign affairs agencies should 
be better organized for overseas crisis response, and the 
Secretary of State should play a lead role in this effort.
    Second, there should be improved standing capacity within 
the civilian agencies to respond to complex emergencies and to 
work in potentially hostile environments.
    Third, the agencies must be capable and flexible enough to 
provide a robust partner to the military when necessary, or to 
lead a crisis response effort when appropriate.
    And fourth, the rapid mobilization of resources must be 
shared by the civilian agencies and the military. While the 
need to ensure security will continue to fall on the shoulders 
of the military, the post-conflict demands on the armed 
services would be reduced by more effectively tapping civilian 
expertise.
    During this process, the Bush administration was extremely 
helpful. Officials from the State Department, the Defense 
Department, the NSC, and USAID attended as guests of the group 
and participated in their private capacities. The participation 
of these individuals does not constitute an official 
endorsement of this bill by their employing agencies, but the 
final product was greatly improved by their collective 
experience and wisdom.
    Our bill urges the President to create a Stabilization and 
Reconstruction Coordinating Committee to be chaired by the 
National Security Advisor. This coordinating committee would 
ensure appropriate interagency planning and execution of 
stabilization and reconstruction efforts. The coordinating 
committee would have representation from the Department of 
State, USAID, and the Departments of Commerce, Justice, 
Treasury, Agriculture, Defense, and other agencies as 
appropriate.
    Our bill would authorize the creation of an office within 
the State Department to coordinate the civilian component of 
stabilization and reconstruction missions. The Office would be 
headed by a coordinator who is appointed by the President and 
reports directly to the Secretary of State.
    Our bill also would authorize the Secretary of State to 
establish a Response Readiness Corps with both active duty and 
reserve components available to be called upon at a moment's 
notice to respond to emerging international crises. The 
reserves would include federal government officials from the 
non-foreign affairs agencies who have volunteered to 
participate and members recruited from the private sector based 
on their applicable skills.
    Finally, our bill urges the Foreign Service Institute to 
work with the National Defense University and the United States 
Army War College to establish a training curriculum for 
civilian and military personnel that would enhance their 
stabilization and reconstruction skills and improve their 
coordination in the field.
    Our intent is not to critique past practices, but rather to 
improve our stabilization and reconstruction capacity for the 
future. We recognize that Senate Bill 2127 does not address 
many facets of this issue that fall under the jurisdiction of 
the military and the Armed Services Committee. I know that my 
colleagues on that committee have many thoughts about these 
issues, and they may recommend additional steps.
    Today it's our privilege to welcome as witnesses three key 
participants in our Policy Advisory Group process. Ambassador 
James Dobbins is Director of the International Security and 
Defense Policy Center of the RAND Corporation, Dr. John Hamre 
is President and CEO of the Center for Strategic and 
International Studies, and Dr. Hans Binnendijk is the Theodore 
Roosevelt Chair and the Director of the Center for Technology 
and National Security Policy at the National Defense 
University. All three have played leadership roles in research 
studies by their organizations on ways to improve United States 
capacity in the areas of stabilization and reconstruction.
    The inevitable post-conflict stabilization and 
reconstruction demands of future crises will require a 
formidable capacity to respond to challenges, both military and 
diplomatic. It is crucial to our success that the necessary 
resources and plans be put in place now.
    For this reason, we look forward to the insights of our 
witnesses and the opportunity to discuss with them Senate Bill 
2127.
    I would like to call upon the witnesses in the order that I 
introduced them, which would include, first of all, Dr. Dobbins 
and Dr. Hamre and then Dr. Binnendijk. You may be assured that 
your statements will be published in the record in full. Please 
summarize them, if you can, since our intent, however, is to 
have as full a comprehension of this subject as we can. Please 
do not feel constrained. You might aim for ten minutes or so as 
the initial summary before questions, but make certain that you 
cover the ground that you believe is important.
    Dr. Dobbins.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
    SECURITY & DEFENSE POLICY CENTER, RAND, WASHINGTON, D.C.

    Ambassador Dobbins. Well, thank you very much, Senator. I'd 
like to thank you for several things: first, for having invited 
me today to testify on this important subject; second, for 
having taking it up and pursued it over an extended period of 
time; third, for having formed a Policy Advisory Group, which 
was bipartisan in nature and which included representatives of 
this administration, previous administrations, and some of us 
who have served in both; fourth, for having attended and 
actively participated in all of our discussions; and finally, 
for having introduced legislation that so closely parallels the 
consensus that emerged in those discussions.
    My prepared testimony today largely repeats what I and, I 
think, many others said in the course of the Policy Advisory 
Group. I'm pleased that this can now be made part of the 
official record. I won't try to repeat it to you today, since 
you've heard it from me, and you've heard it from several 
others. But it is strongly supportive of the legislation that 
you've introduced.
    I submitted this testimony on Friday. Since then the United 
States has embarked on yet another major nation-building 
mission, which wasn't entirely anticipated and isn't covered in 
my testimony, so I thought I might say a word or two about it.
    The Chairman. Our hearing was prescient.
    Ambassador Dobbins. Yes. And that, of course, is the 
American intervention in Haiti, a country with which I became 
painfully familiar in the course of the 1990s. I'd like to 
address briefly the implications of Haiti for the legislation 
and for the steps that you've proposed.
    The first question that arises, of course, is why are we 
doing this again? Haiti has this familiar, this tragic cycle. 
This, I think, is the 35th Haitian president to depart after a 
coup, it's the fourth time the United States has intervened in 
Haiti in a decade, it's the second time that Aristide has been 
driven from office. What did we do wrong the last time?
    My own reflection on that is, first of all, that the 
preeminent responsibility for Haiti's plight rests with 
President Aristide, who repeatedly failed to take advantage of 
the many opportunities that he was offered to set Haiti on a 
new path. That said, however, I do think that in the mid-90s 
the United States set its objectives too narrowly and its time 
frame too briefly to accomplish a lasting change in Haiti.
    The Clinton administration intervened in Haiti with the 
intention of restoring a duly elected president, holding new 
elections, inaugurating yet another president, and then 
immediately leaving. It achieved those objectives. In many ways 
it was a model operation in terms of its benchmarks and stated 
mission. But two years was too short a period to fix a society 
as deeply broken as Haiti. And, in retrospect, the resources 
were quite inadequate as well.
    Only a few years later the United States spent 5 to 10 
times as much to reconstruct Bosnia and Kosovo as it did Haiti, 
a country which is 4 or 5 times larger than either of those and 
much, much, much poorer. And today the United States is 
providing Iraq economic assistance 100 times greater than it 
provided--than Bill Clinton provided Haiti at the absolute peak 
of United States interests in the mid-90s. So in retrospect, 
not only was the time frame too short, but the resources were 
stinted as well.
    Turning to the current intervention and looking at it from 
the perspective of the legislation that you've offered and the 
reforms that are being proposed, one would have to say that in 
this case, again unfortunately, there doesn't seem to have been 
a great deal of planning done. This appears to be heavily 
improvised, and to some degree that may be the result of fast-
moving events.
    Nevertheless, it does seem to me that the administration 
did have a fairly clear choice over the last month or two, at 
least. If its preeminent objective was to avoid having had to 
intervene, then the logical consequence would have been a 
choice of providing diplomatic and financial support to 
Aristide as soon as a armed rebellion had broken out in the 
hopes that that would have proved adequate, unpalatable as that 
choice would have been in light of Aristide's record.
    Alternatively, if the bottom line was that Aristide's 
record was such that Haiti could not be governed with him in 
charge, then one should have started planning a great deal 
earlier for an intervention, since it was fairly clear that if 
Aristide were to leave, the circumstances would be such that 
only an international intervention could have restored order.
    One suspects that instead of making a clear choice between 
both of these unpalatable alternatives, the administration 
debated them until the last moment when the choice was thrust 
upon it over the weekend.
    We do also seem to be, again, in danger of doing what we 
did in both Afghanistan and Iraq, which is underestimating the 
force, the size of the force needed, dribbling in forces too 
slowly, not securing a degree of control, and establishing a 
stable environment from the beginning. We've seen repeatedly 
that whenever a regime topples, a period of chaos and disorder 
and a vacuum of power open, and that this vacuum is always 
filled by a combination of criminal elements and extremists. 
The longer the criminal elements and extremists are 
unchallenged in occupying that terrain, the more difficult it 
is to regain that terrain and establish a stable and secure 
environment. Indeed, we have not yet done so in either 
Afghanistan or in Iraq.
    On the other hand, it's difficult not to be sympathetic to 
the administration's difficulties in mobilizing the resources 
and the attention necessary to do something as difficult as we 
are embarked on in Haiti, given the degree to which we are 
overextended in Afghanistan and in Iraq. There is, I think, a 
real question as to whether even the world's only super power 
is capable of assuming responsibilities for nation-building on 
this order.
    In the Clinton administration there was an implicit one-at-
a-time rule, an understanding that while the resources for some 
of these may not have been overwhelming, the amount of time and 
attention it demanded from policymakers precluded doing more 
than one of them well at a time. And so the Clinton 
administration did not go into Haiti until it got out of 
Somalia, it did not go into Bosnia until it got out of Haiti, 
and it did not go into Kosovo until it had stabilized Bosnia 
and begun drawing down its forces. This forced some difficult 
choices. It chose not to go into Rwanda because it was on its 
way to Haiti, and it knew it couldn't do both at the same time.
    Now, in retrospect that might have not have been the best 
set of priority and, indeed, President Clinton later suggested 
that he would have done it differently had he had the chance to 
do it over again. But at least it did represent a setting of 
priorities and a conscious knowledge of one's limitations.
    In this case, it is my hope that we don't, by taking on so 
many missions and doing none of them well, discredit the whole 
process and concept of nation-building because we have 
demonstrated that when we concentrate enough attention, enough 
men, money, and manpower and time on it, we are capable of 
doing it well. But we need to be careful regarding the number 
of missions we take on at any one time.
    I certainly do think that if the provisions of your 
legislation had applied in the current circumstances, we would, 
at a minimum, be in a better state regarding plans for the 
Haiti operation. We would have had an office in the State 
Department that would have, at least for the last month or two, 
have concentrated on developing contingency plans, on looking 
at the levels of manpower, money that would be required, and on 
having in place the civil components of an effort to rebuild 
the police force, to rebuild the justice system, and some of 
the other programmatic aspects which will have to be part of 
this effort in Haiti.
    Let me just conclude, again, Senator, by strongly endorsing 
the legislation and expressing appreciation for everything that 
you have done to advance it.

    [The prepared statement of Ambassador Dobbins follows:]

                  Prepared Statement of James Dobbins

    I want to thank you, Mr. Chairman, and the committee for having 
invited me here today, for having taken up the subject of post-conflict 
stabilization and reconstruction, for having organized the Policy 
Advisory Group on which I was privileged to serve, and having submitted 
the legislation on that subject which we are here today to discuss. All 
of us who served on the Policy Advisory Committee are particularly 
appreciative of the time and effort you and Senator Biden devoted 
leading and participating in our discussions. It is particularly 
satisfying to see the results of those discussions reflected so 
accurately in legislation you have submitted.\1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
    After more than a decade of intense American involvement in nation-
building it is right that Congress and the Administration should be 
giving thought to how our nation can perform these unavoidable and 
important tasks more effectively? The participation in this Policy 
Advisory Group of senior representatives from the White House, State 
and Defense, of Congressional leaders from both parties, and of former 
officials from this and previous Administrations provided unusual, 
perhaps unique breadth of experience to our discussions on this topic. 
I believe that the results of those discussions, and the high degree of 
consensus they revealed are well embodied in the legislation you have 
submitted.
    In our discussions we were able to draw upon the results of work 
done on postconflict stabilization and reconstruction by several of our 
nations leading research institutions, to include CSIS, the U.S. 
Institute for Peace, the National Defense University and my own home, 
the RAND Corporation. What is striking in this work, as in our 
discussions, is the degree of consensus to be found on the essentials--
that nation-building in some form will remain an inescapable 
responsibility of the international community and its most powerful 
member, that we have conducted these missions successfully in the past 
and are capable of doing so more effectively in the future, that our 
most recent efforts have not drawn fully upon the experience gained, 
often at some cost, over the past decade, and that better performance 
requires both that improved bureaucratic structures for planning and 
execution, and sustained investment in the capacity to conduct 
stabilization and reconstruction missions. Finally, there was uniform 
agreement that the successful conduct of these missions requires a 
broadly based response from our government, in particular from both the 
Departments of State and Defense, and this responsibility cannot be 
delegated to a single agency.
    In its own recently published history of American role on nation-
building over the past sixty years RAND concluded that:

          In its early months, the U.S.-led stabilization and 
        reconstruction of Iraq has not gone as smoothly as might have 
        been expected, given the abundant, recent, and relevant U.S. 
        experience highlighted in this study. This is, after all, the 
        sixth major nation-building enterprise the United States has 
        mounted in 12 years and the fifth such in a Muslim nation. In 
        many of the previous cases, the United States and its allies 
        have faced similar challenges immediately after an 
        intervention. Somalia, Haiti, Kosovo, and Afghanistan also 
        experienced the rapid and utter collapse of central state 
        authority. In each of these instances, local police, courts, 
        penal services, and militaries were destroyed, disrupted, 
        disbanded, or discredited and were consequently unavailable to 
        fill the postconflict security gap. In Somalia, Bosnia, Kosovo, 
        and Afghanistan, extremist elements emerged to fill the 
        resultant vacuum of power. In most cases, organized crime 
        quickly became a major challenge to the occupying authority. In 
        Bosnia and Kosovo, the external stabilization forces ultimately 
        proved adequate to surmount these security challenges; in 
        Somalia and Afghanistan, they did not or have not yet.
          Over the past decade, the United States has made major 
        investments in the combat efficiency of its forces. The return 
        on investment has been evident in the dramatic improvement in 
        war fighting demonstrated from Desert Storm to the Kosovo air 
        campaign to Operation Iraqi Freedom. There has been no 
        comparable increase in the capacity of U.S. armed forces or of 
        U.S. civilian agencies to conduct post combat stabilization and 
        reconstruction operations. Throughout the 1990s, the management 
        of each major mission showed some limited advance over its 
        predecessor, but in the current decade, even this modestly 
        improved learning curve has not been sustained.

    The reason for this lack of investment is not hard to find. Nation-
building has been a controversial mission over the past decade. The 
intensity of our domestic debate has inhibited agencies from making the 
investments that would be needed to do these tasks better. 
Institutional resistance in departments of State and Defense, neither 
of which regards nation-building among their core missions, has also 
been an obstacle. As a result, successive administrations have treated 
each new mission as if it were the first and, more importantly, as if 
it were the last. Each time we have sent out new people to face old 
problems, and seen them make old mistakes. Each time we have dissipated 
accumulated expertise after an operation has been concluded, failing to 
the study the lessons and integrate the results in our doctrine, 
training and future planning, or to retain and make use of the 
experienced personnel in ways that ensure their availability for the 
next mission when it arrives.
    If agencies are to make the investments necessary to improve their 
capacity to conduct postconflict reconstruction and stabilization 
missions, they will need, first of all, a clear sense of their future 
responsibilities. In the 1990s, in the aftermath of the Somali debacle, 
the U.S. militaries role in nation-building was excessively 
circumscribed. The State Department was sometimes called upon to manage 
tasks better left to the Defense Department--training the Bosnian and 
Croatian armies for instance. More recently we moved to the opposite 
extreme, with the Department of Defense assuming responsibilities for a 
wide range of essentially civil tasks.
    The draft legislation we are discussing today represents only a 
beginning at addressing this problem, but it is an important start. 
Both State and Defense need to improve their skills and increase their 
institutional capacity to conduct stabilization and reconstruction 
missions. But the U.S. military, at least, already has in place 
mechanisms to study prior campaigns, including nation-building 
campaigns, to draw appropriate lessons and to integrate these in 
ongoing doctrine and planning. Nothing comparable yet exists on the 
civil side of our government.
    This legislation is designed to provide State greater authorities 
and resources to carry out its responsibilities for postconflict 
stabilization and reconstruction. But in the long run agencies will 
sustain investment only in capabilities that they know will be used. 
The next step therefore, is to design an enduring division of labor 
between State and Defense for the management of stabilization and 
reconstruction missions, a division that both Departments buy into, 
that both the Congress and the Administration support, and that both 
Republicans and Democrats will be content to work within, no matter 
which controls the White House or the Capitol. Just as the Goldwater/
Nichols Act and preceding legislation provides the institutional 
framework through which America goes to war, so, in my judgment, should 
a similarly enduring arrangement should be established for the conduct 
of postconflict reconstruction and stabilization missions.
    This legislation will encourage and assist the Department of State 
to build up a cadre of people with the special skills, interests and 
commitment needed for such missions.
    Nation-building always requires a broad array of U.S. agencies to 
work together continuously in unfamiliar circumstances, both in 
Washington and on the ground. Nation-building diplomacy is always 
multilateral, not only in Washington, New York and Brussels, but also 
in the field, where the absence of any functioning host government 
means even the simplest tasks have to be coordinated locally among a 
wide range of state and non-state actors. These actors include not just 
representatives of other U.S. agencies and other governments, but also 
a myriad of NGO's and an even wider array of local leaders and would be 
leaders. These latter must be dealt with individually because the 
instrumentalities for dealing with them collectively have 
disintegrated.
    Even low-level officers working in a failed or occupied state deal 
on a daily basis with more agencies, more governments and more local 
leaders than many Ambassadors Encounter over months in more settled 
circumstances.
    Nation-building also requires the early mastery of both policy and 
program management. These two types of responsibility do not come 
together in most Foreign Service careers until one reaches the Deputy 
Chief of Mission level. Nation-building missions routinely require even 
relatively junior officers to both administer programs and set policy 
priorities, often while having to deal with the press and local 
notables and negotiate with other governments. These responsibilities 
must be carried out on the basis of limited instructions and inadequate 
communications with Washington.
    The scale of programs also normally exceeds those managed by even 
our largest embassies. In the late 90s aid to both Bosnia and Kosovo 
was, for instance, larger than for all the rest of Europe combined. 
This year aid to Iraq will be larger than that for the rest of the 
world combined.
    Finally, nation-building takes place in the most dangerous, 
devastated and generally unpleasant places on earth.
    Traditional diplomacy and crises response tend to appeal to 
different personality types. State-to-state diplomacy calls for calm 
judgment, reflection, patience, attention to nuance, and carefully 
crafted prose and disciplined service within a well understood 
hierarchy. Failed state diplomacy calls for self-confidence, 
enterprise, initiative, calculated risk taking and an ability to work 
comfortably in highly unstructured environments.
    We face here the familiar prototypes of the cowboy and the farmer. 
They can be friends, but it doesn't come naturally. At the moment we 
have a Foreign Service of farmers, in which cowboys are regarded with 
suspicion. The State Department's task, which this legislation will 
help them tackle, will be to create an environment in which both types 
find a home and rewarding careers.

    The Chairman: Well, thank you very much, Ambassador 
Dobbins.
    Dr. Hamre.

    STATEMENT OF HON. JOHN HAMRE, PRESIDENT AND CEO, CSIS, 
                        WASHINGTON, D.C.

    Dr. Hamre. Mr. Chairman, first, my sincere thanks for 
permitting me to participate in both this hearing and in the 
process that you and Senator Biden established. It is so 
gratifying to see the kind of leadership that you've provided 
to this.
    May I indulge the Chair just to let me introduce my 
colleague who is with me, Bathsheba Crocker, who is really the 
author of this testimony and the architect of so much of our 
work. I'm grateful that you would recognize her for her 
contribution.
    The Chairman. An active participant in our advisory group.
    Dr. Hamre. Yes, sir. And I thank you for that.
    Sir, let me, if I may. I come to this as a defense guy. And 
let me say why I believe your work is so crucial. There are two 
dimensions to America's power: America's power is both a power 
of intimidation and a power of inspiration. We've really 
perfected the powers of intimidation. I mean, no one can stand 
up to us in the world now.
    Unfortunately, our powers of inspiration have atrophied, 
and our sweeping idealism and rhetoric for democracy and 
opportunity is undermined when we have inept application in the 
field. Unfortunately, the inept application of these very 
inspiring projects now drag down and diminish our powers of 
intimidation, to be candid.
    I think we are at a very crucial point where it's in our 
interest, and I speak now from the perspective of the defense 
community. We have to have more competency in our sister 
agencies in the government so that their part of this 
integrated process makes the whole.
    It is not a substitute to have the mightiest military in 
the world and then do so poorly in a post-conflict environment. 
Matter of fact, it really hurts us. So it is in our interests--
speaking as a defense guy--it's in our interests to do what we 
can to improve this in every way we can.
    Let me also say that I consider your legislation to be a 
budget bill. If you could take one week off of the time we're 
going to be in Iraq, we're spending a billion dollars a week. 
If you save us just one week of that, we've saved money with 
this legislation. And I have no doubt we're going to save 
months if we had in place the sort of planning infrastructure 
that lets us do a much better job at the outset. So one of the 
best things that your colleagues can do to help save 
expenditures in the future is to give these kinds of 
capabilities so that as a competent government we can save the 
resources that otherwise we're having to devote to the Defense 
Department.
    Sir, I strongly support your legislation. I think it is the 
essential building point for competencies that we have to have 
in the government. You've struck the right balance, in my view, 
between having to push an executive branch that doesn't like 
being pushed and giving them the flexibility to do it well when 
they are asked to do it. And this is a very hard thing. And 
I've been both on the receiving end and pushing end, you know, 
of this sort of thing before, and I commend you for really a 
very skillful mixing of the two.
    The administration, the executive branch, I would have been 
in their shoes three years ago and I would have said exactly 
the same, I don't like it, but I have to do it. And it's an 
outside pressure. This is what our democracy is all about. Our 
constitutional form of democracy with an independent branch of 
the people speaking through the Congress is asking, We have got 
to fix it. You've done the right thing by striking that 
balance.
    I know that there are those that would like to go much 
further and mandate things and there are those that don't like 
it going as far as it is. But you've done, I think, a superb 
job of finding the right mix.
    It's--frankly, the success is really going to rest on the 
follow through and the oversight that you bring to it after 
this is implemented. And may I encourage you to bring other 
committees of the Congress into this process.
    You need to have parallel efforts underway for the Commerce 
Department, the Agriculture Department, the Treasury 
Department, the Defense Department, and they're other 
departments here that have to be brought along. And that really 
can be done through your agency here in the Congress. And if 
you can inspire your colleagues in those committees to start 
putting the same kind of attention to this that you have given, 
it would do an enormous good.
    Sir, building on the foundation that you've created with 
this legislation, there are, I think, a couple of steps we need 
to take further. I don't want this, in any sense, to diminish 
the importance of what you've put before us. We have to have 
this as a starting point.
    I think that two things that are very clear and especially 
from the tragedy yesterday in Iraq, we do not have the capacity 
to provide intelligence that's necessary to support these 
operations, and we've got to reassess how we're approaching the 
intelligence support for post-conflict operations.
    Second, we still do not have the right formula for 
policing. Now, the Defense Department understandably looks on a 
security challenge in the traditional military form, and so 
they are pursuing the post-Saddam loyalists that most closely 
match the historical threat profile that the Defense Department 
plans for. But the Defense Department does not plan for dealing 
with broad-scale criminality, they do not plan for dealing with 
organized crime.
    One of the things that we now see around the world is that 
transnational organized crime has become the logistics backbone 
for terrorists. We have got to tackle this, and our current 
response, too much, I believe, in the Department is to approach 
our presence in a dangerous environment from a forced 
protection posture, to minimize our casualties. That is keeping 
us from getting an integrated picture on the security problem 
that we face when we move into a place like Iraq or move into 
Bosnia, or, I hate to say, now into Haiti. We have got to get a 
much more integrated security perspective than you can get if 
you do it alone from the Defense Department.
    At some point in time the Defense Department, the State 
Department, the other elements, the intelligence community has 
to get together to get a truly seamless approach to security. 
We haven't done that yet. It's something that you can't do from 
this committee alone; I understand that. This is something that 
you have to do with your colleagues on Armed Services and have 
to do with your colleagues on Intelligence. But it is 
indispensable for the next step.
    As I said, this doesn't diminish in any way the crucial 
nature of this important first step you're taking to get the 
competency inside the State Department and the coordination 
structure inside the NSC. Nothing is more important than 
getting that done. Please make that your first priority, and 
then let us help you with the follow-on steps.
    Thank you very much, Mr. Chairman.

    [The prepared statement of Dr. Hamre follows:]

                Prepared Statement of Dr. John J. Hamre

    Mr. Chairman, I am honored to have the opportunity to address this 
distinguished committee today on such an important and timely subject. 
I fully support your efforts to identify and address the key gaps in 
U.S. civilian post-conflict capacities that are inhibiting fulfillment 
of our ongoing objectives in Iraq and Afghanistan and that will 
continue to plague future efforts.
    Mr. Chairman, you, Senator Biden, and this entire committee deserve 
particular credit for your efforts to bring national attention to these 
issues, and the Iraq case in particular, beginning with your early 
hearings in August of 2002 and a continuing series of hearings since 
then. Your decision to convene a Policy Advisory Group to tackle the 
tough issues surrounding how to better set up the civilian side of the 
U.S. government to handle future post-conflict cases, the important 
legislation you introduced last week, and this hearing today are 
testament to the seriousness with which you are approaching the 
challenges the United States faces in improving our civilian capacities 
to approach future post-conflict cases. This committee's attention has 
been critical to the increased attention these issues are now getting, 
inside the U.S. government, among our friends and allies, and in the 
eyes of the U.S. public.

             POST CONFLICT RECONSTRUCTION: AN ENDURING TASK

    Since the successful examples of the reconstruction of Germany and 
Japan after World War II, the United States has under-invested in the 
civilian capabilities needed to partner with its military forces to 
achieve overall success in complex operations. At the same time, the 
United States has also failed to adequately train, equip, or mandate 
its military forces for the difficult post-conflict security tasks that 
those forces are so often asked to carry out.
    The United States will spend over $200 billion on the military and 
civilian post-war efforts in Afghanistan and Iraq alone. Both places 
have served to remind us that post-conflict reconstruction operations 
are an inherent part of modern warfare. Our military forces can win the 
combat phase of wars decisively, but military operations themselves are 
rarely, if ever, sufficient to achieving the U.S.'s overall strategic 
objectives. To decisively win the peace, we need an immediate and 
sharper focus on developing and institutionalizing the civilian and 
military capabilities the United States requires for complex 
operations.
    The facts speak for themselves: in nearly every operation from 
Somalia to Iraq, a lack of rapidly deployable civilian capabilities has 
left military forces performing tasks for which they do not have a 
comparative advantage and has extended the duration of their 
deployments. Our success rate has been less than impressive: one need 
look no further than the recent events in Haiti to understand that, 
despite a well-intentioned intervention, serious resources, and tens of 
thousands of U.S. ``boots on the ground,'' without the requisite 
civilian capabilities to follow-through in the post-conflict phase and 
the political will to stay the course, countries can easily revert to 
failing or failed state status. Afghanistan is posing a similar risk, 
and Iraq could as well.
    In the fall of 2001, in response to growing recognition of the gaps 
in the U.S. government's ability to respond to the challenges of post-
conflict reconstruction, General Gordon Sullivan (USA, Ret.), president 
of the Association of the U.S. Army (AUSA), and I formed the Post-
Conflict Reconstruction (PCR) Project, initially as a collaboration 
between AUSA and the Center for Strategic and International Studies 
(CSIS). Together, our two institutions assembled a high-level, 
bipartisan Commission on Post-Conflict Reconstruction, comprised of 27 
former U.S. government officials, current members of Congress, experts 
in the field, and representatives of nongovernmental organizations and 
the private sector. (A list of Commission members appears at the end of 
the Commission's report, Play to Win, which is submitted as an 
attachment to this testimony.)
    The Commission issued its final report--Play to Win--in January 
2003, laying out 17 recommendations detailing how the United States 
should reconfigure its agencies, personnel, and funding mechanisms to 
improve response measures in post-conflict reconstruction 
situations.\1\
---------------------------------------------------------------------------
    \1\ Play to Win is submitted as an attachment to this testimony, 
and is available at http://www.csis.org/isp/pcr/playtowin.pdf.
---------------------------------------------------------------------------
    The PCR Project at CSIS is pursuing the implementation of the 
Commission's recommendations through extensive interaction with the 
U.S. government and Congress, including many of you on this committee 
and your staffs, and public outreach and education. At the same time, 
CSIS is undertaking a major project that looks at necessary reforms not 
addressed in the landmark Goldwater-Nichols legislation. CSIS' Beyond 
Goldwater-Nichols Project is developing recommendations, including a 
chapter on improving U.S. interagency and coalition operations in 
complex contingency situations.
    As you are aware, Mr. Chairman, on the basis of our work, Secretary 
of Defense Donald Rumsfeld and Ambassador L. Paul Bremer requested that 
CSIS lead a team of experts to Iraq to perform the first independent 
assessment of reconstruction efforts there. We had the honor to brief 
this committee on our findings and recommendations upon our return from 
Iraq.\2\
---------------------------------------------------------------------------
    \2\ Our trip report, Iraq's Post-Conflict Reconstruction: Field 
Review and Recommendations, is submitted as an attachment to this 
testimony, and is available at http://www.csis.org/isp/pcr/
IraqTrip.pdf.
---------------------------------------------------------------------------
           NEW CAPACITY URGENTLY NEEDED IN CIVILIAN AGENCIES

    This body of work only reaffirms the importance of this committee's 
goals, in convening a Policy Advisory Group, holding this hearing 
today, and the legislation Senator Lugar introduced last week. The 
Stabilization and Reconstruction Civilian Management Act of 2004 (S. 
2127) (SARCMA), if enacted, would significantly change the capacities 
and authorities available to the civilian U.S. government agencies that 
carry out post-conflict operations.
    Had this legislation been law before the wars in Afghanistan and 
Iraq, those agencies would have been far better positioned to address 
the post-conflict challenges in both places.
    Our work over the past several years has highlighted in particular 
four challenging and recurring issues the U.S. government has faced in 
post-conflict operations:

  <bullet> The need for enhanced strategy and planning capacities;

  <bullet> The need for experienced and robustly authorized civilian 
        leadership of the overall reconstruction effort;

  <bullet> The need for sufficient, flexible, and immediate standby 
        funding; and

  <bullet> The need to achieve public safety in the aftermath of war.

    Your legislation would make several meaningful changes with regard 
to the first three issues, although further thinking is required, as I 
lay out below. The public safety question is in part beyond the scope 
of this committee's jurisdiction--at least in so far as it involves the 
U.S. military and Department of Defense--but it must be addressed in 
order for the U.S. to truly improve its postwar efforts.
    Let me briefly address some of the important advances in this 
legislation.

  <bullet> Strategy and Planning. The SARCMA recognizes the need to 
        formalize the National Security Council's (NSC) role in 
        integrating and coordinating strategy and planning efforts, 
        through the establishment of an NSC directorate responsible for 
        post-conflict operations. It suggests the creation of a new 
        Directorate of Stabilization and Reconstruction Activities 
        within the NSC that would oversee the development of 
        interagency contingency plans and procedures. The creation of a 
        standing interagency committee, as suggested in the 
        legislation, would also address the need for greater 
        interagency coordination in terms of planning and execution of 
        stabilization and reconstruction activities. This is a critical 
        provision and essential if we are to make progress.
      Both Play to Win and our Beyond Goldwater-Nichols work also 
        emphasize the necessity of clarifying the NSC's role in 
        integrating and coordinating strategy and planning efforts. The 
        interagency disputes over post-war Iraq--and the failure of the 
        NSC early on to ensure appropriate coordination of planning and 
        operations--have had lasting impact on the effectiveness of the 
        Coalition Provisional Authority's (CPA) efforts.

  <bullet> Funding. The SARCMA makes several very important advances in 
        the area of funding, by authorizing, upon a presidential 
        determination, the provision of assistance to respond to 
        crises, and the use of draw-down, account transfer, and waiver 
        authorities that would otherwise be restricted under the 
        Foreign Assistance Act of 1961. The SARCMA also recognizes the 
        need for a flexible, replenishing emergency account to provide 
        assistance for stabilization and reconstruction activities. 
        Importantly, it would also provide much-needed flexibility in 
        terms of contracting and procurement procedures that often 
        delay the start of important reconstruction work by civilian 
        agencies. (On February 25, 2004, Frederick D. Barton, Senior 
        Advisor and Co-Director of CSIS's PCR Project, and former 
        director of the Office of Transition Initiatives at USAID, 
        testified before the Subcommittee on International Economic 
        Policy, Export and Trade Promotion of the Senate Foreign 
        Relations Committee on USAID's contracting and procurement 
        procedures. Mr. Barton's testimony is included as an attachment 
        to this statement.)
      As highlighted in Play to Win, current U.S. funding mechanisms 
        for post-conflict operations lack needed coherence, speed, 
        balance among accounts, flexibility, and effective mechanisms 
        for contracting and procurement. This means, in practice, and 
        as we have seen in Afghanistan and Iraq, that the President 
        does not have the ability to bring the full force of wide-
        ranging U.S. capabilities to bear on these situations in a 
        timely manner. This constrains our ability to ensure that 
        programs--such as disarmament, demobilization, and 
        reintegration (DDR), deploying emergency justice teams, quick 
        start projects to jumpstart basic services and economies, and 
        support for national constituting processes and civil 
        administration needs--are started quickly, to avoid longer term 
        repercussions. At the same time, post-conflict operations 
        continue to be funded through supplemental budget requests, 
        outside the regular budgeting process.

  <bullet> Operational Infrastructure. Your bill would also address the 
        shortcomings that result from the lack of standing capacity 
        within the State Department to coordinate and oversee the 
        civilian side of stabilization and reconstruction activities. 
        The bill would mandate the Secretary of State to establish an 
        Office of International Stabilization and Reconstruction, 
        headed by a high-level coordinator, with wide-ranging functions 
        related to tracking, planning for, coordinating, and overseeing 
        implementation of activities in crisis situations. Our PCR and 
        Beyond Goldwater-Nichols Projects have highlighted this need. 
        President Bush's decision to give such responsibility to the 
        Department of Defense in Iraq reflects the reality that without 
        a well-staffed and resourced office in the State Department, 
        with appropriately high-level authority and access to 
        principals in the Department, other agencies, and the White 
        House, the President will not be able to rely on the State 
        Department to carry out the essential tasks in countries 
        emerging from conflict or undergoing civil strife.
      Obviously, this Office would require decision-making authority 
        and high-level access, the ability to marshal resources, 
        including personnel, and other necessary special authorities, 
        as discussed below. Your committee would play an essential role 
        in by following up through oversight hearings to insure the 
        Office is properly empowered.
      Your bill would also respond to another need our work has 
        identified: the creation of civilian rapid response capacity, 
        sorely lacking under the current set-up of our civilian 
        agencies. The SARCMA would establish a robust response 
        readiness force of civilians--both inside and outside the 
        federal government--who would be readily available for 
        deployment to conflict and post-conflict zones. The bill allows 
        for important and needed changes in the State Department's 
        personnel system in order to effectuate and reward the 
        commitment and dedication of Department personnel to take part 
        in such operations.

  <bullet> Training and Education. Finally, the bill would make 
        important advances in the area of stabilization and 
        reconstruction training and education. CSIS' extensive efforts 
        to look at current gaps in U.S. capacities have also recognized 
        the need to establish a U.S. training center for complex 
        contingency operations. Thus Play to Win called for the 
        establishment of such a center for training for post-conflict 
        operations. Our Beyond Goldwater-Nichols Project has similarly 
        highlighted the need for a training center for interagency and 
        coalition operations.
      The SARCMA's call for the amendment of the Foreign Service Act of 
        1980 to include a stabilization and reconstruction curriculum 
        for use in Foreign Service Institute, National Defense 
        University, and Army War College programs would be a crucial 
        step toward institutionalizing the civilian and military 
        capabilities the U.S. needs to succeed in these situations. We 
        second the committee's recognition of the important work of the 
        U.S. Institute of Peace in the area of training, and look 
        forward to working with the committee and others to help define 
        the training and education needs in this area.

    Mr. Chairman, the Stabilization and Reconstruction Civilian 
Management Act of 2004 would break more ground than any efforts thus 
far to address some of the fundamental issues that constrain the 
ability of U.S. civilian agencies to respond adequately to 
stabilization and reconstruction tasks, and that have led to the U.S. 
military being over-stretched to meet global needs. The SARCMA is 
crucial if we are to succeed in these efforts in the future, and will 
provide the institutional base upon which those efforts must be built.

                 ADDITIONAL STEPS NEEDED BEYOND SARCMA

    As the committee moves forward with this legislation, and looks to 
build beyond it, there are several important areas that deserve further 
consideration, and I will address some of those areas briefly.

  <bullet> First, the United States lacks adequate civilian strategic 
        planning capacities and mechanisms. The U.S. government needs 
        to enshrine a comprehensive interagency strategy and planning 
        process, including presidential guidance that establishes 
        standard operating procedures for the planning of complex 
        operations. Had such a process and guidance been in place 
        before the Iraq war, we would not have seen the ad hoc, under-
        developed, and duplicative efforts at planning that have 
        plagued the U.S. postwar operations in Iraq.

  <bullet> In recognition of this strategic planning gap, the PCR 
        Project at CSIS has issued two action strategies (relating to 
        Iraq and Sudan) laying out recommendations of priorities for 
        the U.S. government and the international community in 
        preparing for postwar operations. A Wiser Peace: An Action 
        Strategy for a Post-Conflict Iraq was released in January 2003, 
        and To Guarantee the Peace: An Action Strategy for a Post-
        Conflict Sudan was released in January 2004.\3\
---------------------------------------------------------------------------
    \3\ Both reports are submitted as attachments to this statement, 
and can be found, respectively, at http://www.csis.org/isp/
wiserpeace.pdf and http://www.csis.org/isp/pcr/0401_sudan.pdf.

  <bullet> Although the SARCMA recognizes the need for more coordinated 
        contingency planning, and for centralized oversight in the NSC, 
        this and future administrations should ensure that appropriate 
        guidance is in place to organize the cross-agency planning and 
        operational efforts in complex contingencies. Such guidance was 
        promulgated in 1997 as Presidential Decision Directive 56 on 
        Managing Complex Contingency Operations (PDD-56), but President 
        Bush has not yet signed the draft National Security 
        Presidential Directive (NSPD-XX) on complex contingencies that 
        would have provided similar strategy and planning guidance for 
        executive agencies responsible for efforts in Afghanistan and 
---------------------------------------------------------------------------
        Iraq.

  <bullet> Congress should also work with the President to ensure that 
        the Secretaries of all agencies likely to be involved in 
        complex operations abroad have the necessary authorities and 
        resources to establish their own planning offices that could 
        lead the development of agency plans and participate in the 
        interagency planning process. Such offices do not currently 
        exist in the civilian agencies where they would be most needed, 
        namely State, Treasury, Justice, and Commerce. May I suggest 
        that this committee formally contact the leadership of the 
        other authorization committees to encourage them to make this 
        an oversight priority this year.

  <bullet> Second, as the public safety vacuum in Iraq aptly 
        demonstrates, the United States lacks qualified civilian police 
        that are available for short-notice deployments in postconflict 
        environments. (The international community more broadly also 
        has a shortage of readily available civilian police for such 
        cases.) In the absence of viable local police forces in many of 
        these environments, our inability to rapidly field civilian 
        police requires U.S. military forces to take on tasks for which 
        they have not necessarily been trained or adequately mandated. 
        Moreover, the U.S. government's legal authority to train 
        indigenous police forces is constrained.

  <bullet> The Congress and the President should work together to 
        create a standing civilian police reserve force, to round out 
        the civilian personnel needs in conflict and post-conflict 
        zones. The Congress should also consider replacing section 660 
        of the Foreign Assistance Act with new legislative authority 
        that would provide clearer and more robust authority for the 
        United States to train indigenous police forces in conflict, 
        post-conflict, or civil strife-ridden zones.

  <bullet> The Senate at some point needs to address the dire need to 
        establish security units that could execute the specific 
        security tasks inherent in post-conflict environments. 
        Competing proposals have already been set forth, from the idea 
        of creating standing units within the U.S. army that would 
        perform stabilization operations (as suggested in a recent 
        National Defense University report) to having NATO structure, 
        train, and equip multinational units to carry out such tasks 
        (as suggested in Play to Win). Although addressing this need is 
        beyond the scope of this committee's jurisdiction, I believe it 
        is worth the committee's time to recognize this gap in U.S. 
        (and international) capacity. Unless the United States places 
        more focus and attention on this issue, our future post-
        conflict operations will continue to be undermined by our 
        inability to fill the security vacuums that so often define 
        these environments.

  <bullet> Third, responding to crises such as Iraq and Afghanistan 
        dwarfs all other State Department activities, yet it is not 
        clear whether the Coordinator of the new Office of 
        International Stabilization and Reconstruction would have the 
        requisite authorities and resources to respond adequately to 
        similar challenges in the future. At a minimum, it should be 
        clear that the Coordinator will have oversight and management 
        responsibility over the new emergency fund, and any other State 
        Department resources that may be tapped into for a particular 
        operation. The Coordinator's authorities over personnel and 
        resources of other agencies involved in responding to any 
        crisis also need clarification. Further consideration should be 
        devoted to the question whether a new State Department bureau, 
        Deputy Assistant to the President for National Security Affairs 
        position, White House office with expanded budget authorities, 
        or a new stabilization and reconstruction agency would more 
        fully address the lagging civilian leadership needs.

  <bullet> Further, the President should be encouraged to designate one 
        senior official to be in charge of and accountable for 
        integrating U.S. civilian interagency operations on the ground 
        in any country in which the U.S. is providing stabilization and 
        reconstruction assistance.

  <bullet> Fourth, although it is crucial that the committee address 
        the problems inherent in the architecture and practices of the 
        State Department, the capacities and role of the international 
        community must also be enhanced if these efforts are to be 
        ultimately successful. Just as the U.S. military should not be 
        the sole or even principal participant in reconstruction 
        efforts, neither should the United States shoulder a 
        disproportionate burden in these endeavors, whether by design 
        or due to our international partners' lack of needed 
        capacities. The President should strive to ensure that the 
        United States works with its partners to more fully integrate 
        the political, military, economic, humanitarian, and other 
        dimensions of complex contingency operations. This will mean 
        everything from sharing information (as envisioned in the 
        SARCMA) to conducting joint planning and training exercises to 
        committing needed resources to strengthen capacities at the 
        United Nations, among NATO countries, and elsewhere.

  <bullet> Finally, and crucially, although perhaps beyond the scope of 
        this bill, I cannot over-stress the importance of creating 
        ``jointness'' between the military and civilian sides of any 
        complex operation in which the U.S. is engaged. It is 
        imperative that the military and civilian leadership in the 
        field during any such operation are linked together, through 
        co-location and other means, and that there is one designated 
        point of contact back in Washington to whom they can both 
        report, from whom they can take direction, and who can bring 
        problems and needs directly to the attention of a responsible 
        decision-maker. This type of joint-ness should be established 
        long before any crisis situation arises, through enhanced 
        peacetime opportunities for civilian operators and planners to 
        work with military counterparts, joint training opportunities, 
        and by encouraging military and civilian personnel to spend 
        time working at each others' agencies in Washington. (These 
        same ideas should also be encouraged with respect to working 
        with counterparts from various countries.)

                               CONCLUSION

    Mr. Chairman, I have been honored to serve on the Policy Advisory 
Group you established to identify and discuss stabilization and 
reconstruction activities, and to testify before you today. It is my 
sincere belief that if you continue to work with Executive agency 
policymakers to implement the important changes outlined the 
Stabilization and Reconstruction Civilian Management Act of 2004, the 
United States will be better prepared to handle future needs in 
conflict, post-conflict, or civil strife-ridden areas around the world.
    CSIS will remain engaged on these crucial issues. We look forward 
to continued interaction with this committee on these pressing 
questions, which will impact the U.S.'s ability to protect itself, 
promote its interests and values, enhance its international standing, 
and improve the lot of people around the globe. We stand ready to 
engage with you in whichever ways will be most helpful to your 
important work.

    The Chairman. Thank you very much, Mr. Hamre.
    Dr. Binnendijk.

STATEMENT OF HON. HANS BINNENDIJK, ROOSEVELT CHAIR OF NATIONAL 
 SECURITY POLICY, NATIONAL DEFENSE UNIVERSITY, WASHINGTON, D.C.

    Dr. Binnendijk. Chairman, it's a pleasure to be here, 
again, with you today. And let me join my colleagues in 
commending you and Senator Biden and the committee not just for 
the legislation that you introduced, but also, again, for the 
process that led to it.
    My testimony will be based primarily on a report that was 
produced by the National Defense University called Transforming 
for Stabilization and Reconstruction Operations. And I would 
just stress that I'm here in my personal capacity.
    The September 11th tragedy really did reinforce the fact 
that conditions in otherwise obscure places can directly affect 
the security of our homeland. In our study we looked at about a 
dozen cases in which U.S. forces might plausibly be deployed in 
the future in these kinds of stabilization and reconstruction 
operations. And ironically we did not look at Haiti. But the 
point is that there are plenty of potential needs out there, 
and we cannot continue to deal with them on ad hoc bases. We 
need to set up permanent procedures and institutions to deal 
with them.
    Another key point in our study is that a gap has been 
created. We call it the ``stabilization and reconstruction'' 
gap. This is a gap between our high intensity conflict, that 
period of the operations and nation-building. And this gap has 
been created in large measure because we have been so 
successful in fighting the high-intensity war.
    We win quickly with few troops in theater. It's not a war 
of attrition. Very often parts of the enemy regime are still in 
place, but we don't have the troops there to deal with the new 
missions, and so a gap has been created.
    And the thrust of our study really looked more on the 
military side to try to make suggestions on how the military 
needs to gain these new capabilities and reorganize for them. 
And so I would just stress John Hamre's comment that as this 
committee goes forward it's vitally important that other 
committees also look at this. And the Defense Department also 
needs to enhance its capabilities and reorganize to meet these 
missions.
    In order to deal with this stabilization and reconstruction 
gap, we need both military and civilian capabilities. The 
military can do an awful lot, especially on the stabilization 
side. They're not as well equipped on the reconstruction side. 
What is needed is economic skills, developmental skills, legal, 
law enforcement, judicial, linguistic, cultural, political, and 
diplomatic skills. These are the skills that reside primarily 
on the civilian side of the House, in the State Department, in 
USAID, in other domestic agencies. The problem is that the 
domestic agencies and the State Department are not organized 
well for this purpose, and they, incidently, also have very 
strong ties to the NGOs, to the international organizations 
that are critical for the success of this mission.
    What is needed and what your legislation provides is taking 
those skills that exist, expanding on them, and reorganizing 
them and focusing them. With that, civilians can become in 
these kinds of operations what the military calls ``force 
multipliers''; that is, they can have capability well beyond 
the individuals who are there. And some of the provisions in 
the bill, for example, the contingency fund, will allow these 
individuals to become force multipliers.
    It is very important, I believe, that the State Department 
play a greater leadership role in these missions. It will allow 
greater post-conflict planning in the pre-conflict stage 
together with the military, and it also puts in place 
capabilities during this transition period, during this gap 
period, so that when it comes time for the nation building 
phase of these operations, we will have people and programs in 
place already, and that's key to accelerating the nation-
building part of this. And as John Hamre said, ``That saves 
money.''
    There are a number of recommendations in our study, which 
are available in my testimony. I'll just hit a couple of the 
highlights.
    We do recommend a significant new capability in the 
military, the creation of two joint commands for these 
purposes.
    We recommend changes in professional military education 
very much in line with provisions in your bill.
    We recommend changes in the interagency process, also very 
much in line with those in your bill. The creation, for 
example, of a National Interagency Contingency Coordinating 
Group.
    Let me perhaps make some comments on the specific sections 
in your bill. I know you have a markup tomorrow, and perhaps 
making a few specific comments on the provisions of the bill 
might help.
    Section 4 is, to me, very important. This is the section 
that creates a directorate at the National Security Council and 
creates a standing committee, an interagency committee, to deal 
with these kinds of contingencies. This creates what the 
military would call ``unity of effort.'' This is quite 
important for the success of these operations. The problem is 
that as you approach a crisis in a war there is a tendency to 
centralize activity in one department, and we need, therefore, 
a very strong coordinator, and that is what your bill provides, 
to make sure that the entire interagency is orchestrated.
    A suggestion for your markup would be to strengthen that 
provision. It may be difficult to make it mandatory. It's 
currently a sense of the Senate, but strengthening that in some 
way would be useful.
    Similarly, Section 4 talks about the importance of the 
international community in these operations. We need our allies 
today more than ever before, but NATO is not organized for 
stabilization and reconstruction operations. And you could 
consider adding a provision in Section 4 which would suggest to 
NATO that it should create a stabilization and reconstruction 
capability, which could be military and civilian and add that 
to Section 4 of your bill.
    Section 5 I considered to be very important. It is the 
waiver and contingency fund. I see this as kind of a first-aid 
kit. As you indicated in your opening statement, what you do in 
the first hours and days of these operations is crucial. You 
need that first-aid kit. You need to have these fundings and 
the waiver so that when a State Department or AID officer is on 
the scene, they have something to exercise. They can be the 
force multiplier.
    But I would suggested--here I really reflect on this in my 
old capacity as being the legislative director of this 
committee--you might want to take a look at the waiver. It is 
quite open-ended, and you might want to think about some way to 
limit that, perhaps a dollar ceiling or some other way to deal 
with it.
    Section 6 creates the new State Department Office, which, I 
think, again, is crucial. It creates a focal point for activity 
on the civilian side. I would urge that the various authorities 
in your bill be exercised so that this office is populated not 
just with civilians or State Department officials but with an 
interagency group including the military.
    We might strengthen this particular provision by adding a 
new subsection which says,--this is under the functions 
section--which says that this office would ``support and 
oversee the operations of the Response Readiness Corps and the 
Reserve Corps when they are deployed.'' That would keep a 
continuing tie between this office and the overseas operations.
    These civilian operations need to be both rapidly 
deployable and in depth, and Section 7 of your bill does both. 
It creates a rapidly deployable corps and it creates a reserve 
which gives you that in-depth strength. It also includes a 
series of incentives, which I think are critically important to 
get individuals to sign up for the corps or for the reserve. 
These are going to be dangerous missions, and I would suggest 
the committee could even be bolder there in terms of creating 
incentives for individuals to join: additional danger pay, 
recruitment bonuses; for example, time towards retirement, if 
they're government officials, you could double the time. If 
they're deployed for a year, they could get two years' credit 
for retirement, for example.
    Section 8 deals with training and education, and, again, I 
think this is crucial if this is to be successful. I would note 
that we have a small foundation at the National Defense 
University for this kind of an operation, that we have a 
program underway there that does teach interagency contingency, 
complex contingency operations. We do this, as the legislation 
suggests, in cooperation with the Foreign Service Institute and 
the Army War College. And so, there is a place where you can 
build. I would just note that this does have to be properly 
funded, and as I look at your bill, I believe it is.
    So let me just end where I started by thanking you for the 
opportunity to testify and commending you for your effort on 
this.

    [The prepared statement of Dr. Binnendijk follows:]

                 Prepared Statement of Hans Binnendijk

    Mr. Chairman, I am pleased to testify this morning in support of S. 
2127, the Stabilization and Reconstruction Civilian Management Act of 
2004. My comments are based primarily on a study entitled Transforming 
for Stabilization and Reconstruction Operations prepared by the Center 
for Technology and National Security Policy at the National Defense 
University, as well as my own experience in government. A copy of this 
study has been made available to the committee.

   REQUIREMENTS FOR A NEW CIVILIAN STABILIZATION AND RECONSTRUCTION 
                               CAPABILITY

    The September 11 tragedy reinforces the fact that conditions in 
otherwise obscure places can directly affect the security of our 
homeland. Our study considers at least a dozen places where U.S. 
military forces might plausibly be deployed on stabilization and 
reconstruction missions. To avoid over-stretch, we will need to choose 
any intervention very carefully. But if a decision to get involved is 
taken, we must be able to put the full weight of all of America's 
national security assets behind the effort. History shows that the 
level of sustained effort is a major if not deciding factor in 
determining the success of these operations.
    The American ability to win wars quickly with relatively few troops 
in the combat zone has created some unintended consequences that 
require creative solutions. Enemy regimes tend to collapse quickly 
under our transformed military's pressure without the more traditional 
war of attrition being fought. As we have seen in both Afghanistan and 
Iraq, remnants of the old regime can survive amidst the post-conflict 
anarchy. We may have inadequate forces in theater to deal with this 
challenging development.
    Nation building cannot succeed without stabilizing this situation. 
Early progress is vital to long-term success; early mistakes are 
magnified. A ``stabilization and reconstruction'' gap has opened 
between the high intensity warfare phase of these operations where the 
military dominates and the nation-building phase where civilian 
agencies dominate. The gap must be closed if America is to win both the 
war and the peace.
    It will take a mix of military and civilian skills to close this 
``stabilization and reconstruction'' gap. The military can use infantry 
and military police to bring some order to society, and it can use its 
civil affairs, engineer, and medical units to provide immediate 
humanitarian relief. The Army rightly is developing more of these 
assets at the expense of some traditional skills like air defense and 
artillery. But as our study points out, more needs to be done to 
prepare the military for these future tasks. This is an effort that 
should be carried out in parallel with what the Foreign Relations 
Committee is proposing.
    There are a number of skills that are insufficient in the military 
but are necessary for success. They include economic, developmental, 
legal, law enforcement, judicial, linguistic, cultural, political and 
diplomatic skills. They include ties to international humanitarian 
organizations, non-governmental organizations and large private sector 
construction contractors. These skills and ties exist in the civilian 
agencies, at the State Department, at USAID, and at several other 
agencies, but not in adequate numbers. And most importantly, they are 
not organized for this purpose and not quickly deployable to troubled 
regions. Properly organized and deployed, civilian agencies can be what 
the military calls ``force multipliers,'' that is they can have impact 
well beyond their numbers. The military recognizes that it needs these 
civilian skills during stabilization, reconstruction and nation 
building operations, and every military officer that I have talked to 
about the committee's initiative applauds it.
    The State Department needs to develop these deployable capabilities 
so that it can participate fully in the entire process and maximize its 
leadership role. Post-conflict planning needs to take place in 
cooperation with war planning, and this will require a much higher 
degree of collaboration between State, Defense and other elements of 
the interagency process. The State Department is the logical agency to 
lead post-conflict activities in the field, but to do so effectively it 
must bring needed capabilities to the table early in the process. And 
deploying State Department assets early in the stabilization and 
reconstruction phase will allow it to smooth the transition to the 
final longer-term nation building effort.

        RECOMMENDATION IN THE NATIONAL DEFENSE UNIVERSITY STUDY

    While the National Defense University's study focused primarily on 
military requirements, it does cover several issues included in S. 
2127. Our study recommends:

  <bullet> Developing new strategic concepts for ``post-conflict'' 
        operations.

  <bullet> Creating two new joint stabilization and reconstruction 
        military commands (at about the division level), one in the 
        active component and one in the reserve component.

  <bullet> Rebalancing the existing total military force to create new 
        skills in this area, especially in the Active Component.

  <bullet> Modifying professional military education to focus more on 
        new missions.

  <bullet> Harnessing technologies that enhance stabilization and 
        reconstruction capabilities.

  <bullet> Strengthening interagency mechanisms by creating a National 
        Interagency Contingency Coordinating Group that would prepare 
        for and plan such missions.

  <bullet> Organizing a standing interagency team that could deploy to 
        the field promptly with skills needed to prepare for nation-
        building.

  <bullet> Creating a State Department led reserve civilian crisis 
        management corps that could be called up to supplement the 
        standing interagency team and accelerate the transfer of 
        command from the military to civilians.

  <bullet> Encouraging NATO to create similar structures, such as a 
        NATO Stabilization and Reconstruction Force.

                   COMMENTS ON PROVISIONS OF S. 2127

    The Stabilization and Reconstruction Civilian Management Act of 
2004 is a bold piece of legislation, but boldness is needed in light of 
the new nature of conflict and the uncertain strategic environment that 
we face. I fully support the bill as introduced. I do have some 
comments on the need for specific provisions of the bill and have some 
modest suggestions for improvements.
    The sense of the Congress provision in Section 4 that suggests 
establishment of a new directorate at the National Security Council and 
a new standing committee to oversee policy will help with what the 
military calls ``unity of effort.'' This provision is needed. Plans for 
war and peace must be coordinated throughout government. As a nation 
moves towards war, however, there is a natural tendency to centralize 
these functions in one department, undermining unity of effort. The NSC 
should not be operational, but it needs to be a strong coordinator to 
maximize all agency contributions and set common policy directions. The 
committee might consider mandating these provisions rather than 
limiting them to ``sense of the Senate.''
    Section 4 also highlights the importance of the international 
community in post-conflict operations. The core of this international 
support on the military side must be NATO, but NATO is not organized to 
deal quickly and routinely with these missions. As the United States 
builds these new capabilities, NATO must too. An additional subsection 
highlighting this would be useful.
    Section 5 provides a broad waiver and special contingency funding. 
This is generally required to give deployed civilians the ability to 
have an immediate impact. An analogy is a first aid kit to provide 
emergency treatment without which the patient might die. The committee 
might want to consider, however, whether the waiver authority is too 
broad. It appears open-ended, and the committee might want to limit it 
in some way, for example with a dollar ceiling.
    Section 6 creates a new State Department Office of International 
Stabilization and Reconstruction that will become the focal point for 
civilian operations overseas. This office indeed belongs at State, 
rather than at USAID, because these operations take place in the 
context of political crisis and State's leadership in the overall 
political context is crucial. This Office should be populated with 
civilian and military personnel from all interested agencies, and the 
exchange programs and detail authorities included in the bill will 
support that requirement. A suggestion to strengthen this section 
further is to add a new subsection 3(F) under ``functions'' which would 
make it clear that this Office would ``support and oversee the 
operations of the Response Readiness Corps/Reserve when its members are 
deployed.''
    Civilian operations in these missions need to be rapidly deployable 
and they need depth. Section 7 of the bill does both. The Response 
Readiness Corps is to be rapidly deployable and the Response Readiness 
Reserve will provide the depth. The incentives provided for those who 
join these groups are useful, but given the potential physical danger 
inherent in these jobs, the committee might consider even bolder 
incentives. For example, recruitment bonuses might be paid, additional 
danger pay could be provided, and time towards retirement could be 
doubled during the deployment.
    Section 8 provides for vital training and education for the members 
of the Response Readiness Corps/Reserve. As the bill suggests, the 
foundation for this already resides at the National Defense University, 
in conjunction with the Foreign Service Institute and the Army War 
College. The expansion of this educational effort appears to be 
properly funded. My only suggestion here is that civilians should 
participate in this special curriculum together with military officers, 
perhaps in equal proportions.
    Mr. Chairman, let me end by commending you and the committee for 
the process that led to this legislation and for inviting me to 
participate. I believe the legislation that you have produced will be 
vital to America's ability to better deal with failed states and post-
conflict situations.

    The Chairman. Well, I thank each one of you. Let me, first 
of all, indicate that my colleague Senator Biden is equally 
interested in this. This has been a bipartisan effort that has 
shared broad support in our committee, and we appreciate that. 
The staffs on both sides of the aisle have worked with you and 
with others on crafting language.
    I appreciate, Hans, your thoughts both as former director 
of this legislative effort on one side of the table and 
likewise your distinguished work presently at the University in 
trying to draw attention in the section-by-section analysis to 
things we might be thinking of. I think those are good 
suggestions.
    Dr. Hamre, I was struck by your thought that we have a 
military that does intimidate by the very effectiveness and 
comprehensive way in which we're able to employ it. This is an 
important thought. In some ways we may be diminishing the 
effectiveness of the military, the intimidation process. Others 
looking at all of this may say fair enough, we take this strike 
and we lose, but after that the war goes on.
    In other words, we might wonder whether Saddam Hussein or 
anyone else in Iraq was devious enough to think ahead and 
decide that it's apparent that their forces were not going to 
be able to match the American or the allied forces, but at the 
same time they anticipated that in the chaos that ensued, the 
Americans and others may get tired of all this, having won a 
military victory, while the support for that business erodes 
and as a matter of fact the country becomes virtually 
ungovernable, and by the time everybody has abandoned the 
affair, they may be back.
    I would say that I was enjoying the visit that I had in 
Baghdad in June of last year. There was a feeling that some 
Iraqis were not rushing to participate in neighborhood councils 
or to take their roles in the civilian government, as people in 
testimony before our committee before the war had rather 
naively anticipated they would. Leaving aside the crowd dancing 
in the street, it was thought that perhaps the normal middle 
class might have come forward. They did not come forward very 
fast. In large part there was a feeling of keep your head down 
because this war isn't over. Yet from the U.S. standpoint the 
war was decisively done.
    The fact is that we're talking about the realities of what 
occurs in this world today when we have such awesome 
intimidating power. Maybe others are going to make provisions. 
The Haiti thing is obviously very different. But Iraq was a 
full-scale war. It shows the intimidating power and then the 
limitations of that war if we do not have something else that 
follows through.
    Having said that, it seems to me that we still have a 
daunting set of prospects here. I think our legislation, in a 
modest way, makes suggestions to whomever is the President of 
the United States or whomever has the Cabinet roles or is in 
the NSC at the time. Somebody's going to have to fill in the 
blanks, is going to have to bring vigor to this process and to 
the recruitment of civilians who may be in some sort of ready-
reserve, with particular skills, to encourage them to come 
forward. That is a daunting prospect, although not impossible. 
We have a lot of talent in America.
    As to the question of organizing all this, I would just say 
that there are some parallels with Nunn-Lugar. You have all 
been very supportive of the Nunn-Lugar Cooperative Threat 
Reduction Act. At the beginning of this we start out with 
almost a blank sheet. There's $400 million authorized and 
finally appropriated, but for the moment no one knows exactly 
what to do. So Sam Nunn and I take a trip and bring along some 
administration people, much like the advisory group that we've 
just been through, and we go to Russia and Ukraine. People 
begin to think about this.
    The problem then was not unlike our situation now. The 
Russian officials that came to Sam Nunn and to me and to some 
of you were saying, in essence, that the Cold War is over. At 
the same time, you've spent $6 trillion containing our nuclear 
weapons in so-called ``mutually assured destruction'' or 
however you want to describe the deterrent effect. We've got to 
tell you things are different. Things may be loosening up. The 
army may not be reliable at certain points, in terms of 
guarding what we have. Or, as a matter of fact, some people 
might want to appropriate some of these weapons in an anarchic 
status in various parts of our country. That's different. Here 
you have a constructed thing for 50 years in which everybody 
deters successfully and mercifully. This is a different ball 
game, and it should be our emphasis.
    Fortunately we got together with Russians who shared in 
cooperative threat reduction. We expressed fears that 
proliferation was a real threat, and we discussed security 
problems of these sorts.
    This is different from Iraq, different from Haiti, but the 
problem is still the transition after the Cold War. We have to 
set up for the next one.
    It appears to me that all of you have made the comment in 
your papers, and some in your testimony today, that, in dealing 
with terrorists and the lack of nation-state situations, we 
really do have to improvise a whole lot more. The very people 
whom we're looking for, we don't always see. The threats are 
hard to perceive, and they are multinational.
    This is going to require ingenuity, which we have in 
abundance as Americans. We hope that we are bright and skillful 
enough to handle this, but we're not really set up for this. As 
a result, the President in his speech to the National Defense 
University the other day tried to hit head on again the 
proliferation danger, including all of the things that have 
come out of the closet with the A.Q. Khan papers, and with the 
revelations of the Libyans and others. For 20 years all kinds 
of transactions were occurring. We may have been none the 
wiser. It's now interesting to fill in some of the blanks. 
Several countries were dealing back and forth, sometimes 
successfully, and as we know now with the Libyans. Perhaps 
after all is said and done, maybe their warhead wouldn't fit 
their missile. It's not easy to do these things.
    It's chilling to think that you have a missile and a 
warhead that didn't fit, and so we maybe lucked out, as opposed 
to a situation in which we really were on top of the 
proliferation all the way through, and in which we had some 
idea who was dealing with whom in this thing.
    I mention all of this because it gets back to the necessity 
of thinking about failed states that may have failed because, 
as was the case in Iraq, we effectively eliminated the 
controlling regime. It may occur in the case of Haiti for all 
sorts of reasons. People may be thinking, now why there? In the 
Balkans, there was a huge number of reasons why things might or 
might not have gone well. And who knows where else.
    The problem with terrorism is, wherever there's a failed 
state, sort of a burn-out situation, there is also the 
possibility for the building of an al Qaeda camp, or for others 
to do mischief. While no one is responsible, no calling card 
for deterrence makes this imperative.
    You pointed out, I think, Ambassador Dobbins, or perhaps it 
was you, Secretary Hamre, that in the Clinton days the thought 
of doing one at a time meant that we would not be over-
extended. A lot of people shared that point of view. Here on 
the Hill, as a matter of fact, people were constantly on the 
President's case wondering why we were still there. How were we 
going to build down as rapidly as possible? This was quite 
apart from what other problems he might have.
    If I'm correct, and I am sketching a situation in which 
there could be several failed states all at the same time, we 
can't pick and choose. The terrorists don't really allow that 
prospect, because they've picked up wherever the failure 
occurred. Many Americans listening to this conversation will 
say, well, why us? Isn't somebody else interested in all this? 
Maybe?
    The response that you've mentioned, Dr. Binnendijk, of NATO 
of trying to think through this with other partners, is very 
important. At the Munich Conference that some of us just 
attended, you get back to the fact that even though our NATO 
allies may have armed somewhere between a million and a half to 
two million people, barely 55,000 might be available for so-
called expeditionary missions. That is, we must work outside of 
the countries that the military has configured to defend those 
states, and not to go to Afghanistan, which is presently a 
mission taken on quite separately from Iraq or anywhere else. 
So we are it. This is our situation.
    Let me just ask this question. Do any of you have an idea, 
if you were an American citizen listening to this, how many 
people may be involved in these forces, these reserves of 
civilians who have special skills, or people in the State 
Department, the Agriculture Department, the Commerce 
Department? All of these people have to be integrated into some 
sort of whole government if we are to try to help bring 
wholeness to this situation. We're authorizing somebody to 
think about this, and, in fact, we are asking the President to 
appoint someone at NSC to coordinate, and so forth. Do you have 
any conception of how many people ought to be signed up? What 
kind of rosters ideally should we have in these areas?
    Ambassador Dobbins. Well, let me start. I think that if you 
leave--first of all, if you're starting with the State 
Department and the number of State Department professionals 
that ought to be skilled in and available for these kinds of 
tasks. And if you put Iraq aside and look at the number who 
have actually been assigned over the last 12 years or so in 
Somalia, Haiti, Bosnia, Kosovo, Afghanistan, and now Haiti 
again, I think the number in your bill is about right.
    In other words, an additional staffing of, I think it was 
250 if I remember correctly, would give the State Department 
the additional cadre it needs to staff these missions. But 
that's only obviously part of it. So I think the number in your 
bill is a good number, if you assume Iraq is an exception, that 
Iraq is not the rule. Because if you need the staff on the 
level of Iraq, you probably have to double or triple that 
number to get an appropriate number.
    Now, another category, which is very numerous or 
potentially quite numerous, is police. The U.S. normally 
deploys police as part of an international operation. It's 
reasonable to assume that the United States should be able to 
deploy about 20 percent of any global operation. Just given the 
size of our GDP and importance in the world, 20 percent is a 
reasonable share. And the European Union has set a goal for 
itself and actually begun to meet that goal of having 5,000 
police deployable at any one time. They have a reserve of 5,000 
police they can deploy. And the European Union already has two 
police operations underway in which they are deploying police 
in the Balkans in two different operations.
    It does seem to me that the European Union's target would 
be a reasonable target for the United States, that we, too, 
should be able to deploy 5,000 police as a supplement to our 
military. We're about the same size as the EU, we have about 
the same size budget. That would seem to me to be a reasonable 
number.
    I haven't given thought to numbers that might be from other 
agencies, from Justice, from Treasury. I suspect they're a good 
deal smaller. I think those would be the two principal civilian 
components, the State Department professionals who staff and 
coordinate the efforts abroad and provide programmatic 
management. And probably including AID in that number as a 
subcomponent of State. I don't mean to neglect it. It may be 
the most numerous in some cases. And then the police.
    The Chairman. Yes, for instance, if the EU had 5,000 and we 
usually do 20 percent, so we have 5,000, maybe this means 
25,000 people. That requires, obviously, coordination on our 
part as to how we get to our 5,000. As you say, there might be 
some other agencies. There might be some international 
diplomacy to make sure that the EU is on board and wants to do 
nation-building wherever it needs to be done. And then the 
other 60 percent is still to be filled in.
    There are others in the Caribbean now. Secretary Powell 
indicates that there may be Caribbean nations that would 
provide some policing in Haiti, for example. We may determine, 
through our experience in the Caribbean, who might be policing 
in the Middle East. Or is this more regionally based? We need 
to identify who pays for the transportation, and maybe for a 
lot of other things, a problem which is not insoluble.
    I'm just taking the benefit of your collective wisdom today 
to try to obtain a little more understanding because these 
questions will be raised by other Senators, by the press, and 
by others.
    A police force is implied. We're going to be a part of 
that. We think the EU has been thinking about that in a 
concerted, constructive way, which they have. Under Lord 
Robertson, NATO and others, have gone out of area and said they 
are prepared to play a role. They're doing so in many nations, 
including Afghanistan, for example. At least we have the 
benefit of that bridge having been crossed.
    Still, let's say that there are specialists, people who are 
in this country, and who, in their normal days, are bankers or 
economists or people involved in agriculture or so forth. How 
do we identify, through the State Department, or through NSC, 
or whatever the appropriate recruitment is, people who are 
prepared to do national service in this very extraordinary way 
of nation-building and resolving failed states? How do we find 
people who might welcome this challenge? We might be calling 
upon then, hopefully not frequently. Yet given the number of 
instances in recent history, more often than we might like, 
they may be called.
    And yet I think that we have all seen in Iraq remarkable 
work by young American servicemen, whom I personally saw out in 
the neighborhood, or in police training, or in various duties. 
They certainly have never run for city council or the school 
board or what have you back home, but at the same time they are 
using their native skills to try to organize people in the 
field in what is a failed state, literally, with crumbling 
institutions. I would just say that we need to think through 
this. We had to improvise because these soldiers were the 
people on the ground. They did a good job in some cases, but 
obviously they could not bring the expertise to state craft as 
could other Americans, or maybe nationals of other nations, if 
we're more inclusive in this effort.
    I wonder if we've touched upon this a little bit in the 
legislation and in the discussions. Would you please amplify 
your own thoughts as to how we get to that point, where we've 
got a pretty good roster, and we can ring somebody up and tell 
them that we've got a mission for them today that's really 
important. You need to take a flight there and help out.
    Dr. Binnendijk. If I could make two points, first on 
question of allies and then on the question of numbers.
    With regard to our allies, I agree that NATO does have a 
problem with deployable troops. But here is an area where in 
many ways our European allies are better at it than we are. 
They have long-term experience, many of these countries, 
certainly the British and the French, but also in the last 
decade in the Balkans and elsewhere, now in Afghanistan. The 
Germans, the Italians, the Dutch all are developing 
capabilities in this area, so I would not underestimate the 
contribution that they can make.
    With regard to the numbers. I agree with Jim that the 
active duty element of this, 250 is the number in the bill. I 
think that is about right. What is key here is not so much that 
number, but what capabilities they have and whether they really 
do become force multipliers, and that depends very much on the 
contingency funding, on the other authorities and capabilities 
that they bring. So I would say that that number is about 
right.
    When you get to the last question of the reserve force, how 
large should that be? I think the notion has been about 500. 
That may be small. I think this will be essentially a list of 
people who are trained part time. An analogy might be a civil 
affairs unit in the military. I think you're going to find many 
of these people, not just in the federal government, but at the 
state and local level, and they will not be like the military 
where you can call them up and force them to go. There will be 
a voluntary element to this, so you're going to have to create 
very strong incentives. So I would anticipate that you're going 
to have to come up with a longer list, in addition to the 
police issue.
    The Chairman. Yes, because we've already identified maybe 
5,000 policemen from somewhere in America.
    Yes, Dr. Hamre.
    Dr. Hamre. Senator, we're a nation of volunteers. I really 
don't think it's going to be hard to find quantity of people. 
What we have not done very well is organize that.
    The Chairman. Yes.
    Dr. Hamre. What we really need is the capacity to organize 
and to view it as a very constructive thing from the standpoint 
of the federal government. Unfortunately, you know, government 
employees tend to be a little paternalistic about, you know, 
summer help and whether they are up to the task. We have 
programs in the federal government; they aren't terribly 
robust.
    FEMA has a good program where they routinely keep track of 
people. They are mobilizable executives. But you need to keep 
them trained, there needs to be expectations of their 
involvement in doing it, and you really have to manage this as 
a real intentional effort. It's not a question of getting--
you'll get the people; it's amazing the number of things that 
Americans are willing to stand up and do. But it needs to be 
organized, and I think that's missing.
    This is going to be the key question: Can you find the 
right spirit and attitude inside the foreign security policy 
establishment that sees outsiders as constructive augmentees to 
their activity? Frankly, it's a bit of an attitude challenge, I 
think, but that will be the biggest thing to work.
    May I say just a word----
    The Chairman. Yes.
    Dr. Hamre [continuing].----on the policing?
    We're dealing here with a very central problem. The reason 
we use the military all the time is because it's the only part 
of the federal government that can mobilize and be 
qualitatively different tomorrow. We don't buy excess cops, you 
know, and just keep them in reserve units. We buy every cop we 
can afford and put them out on the beat. Because of that when 
we have emergencies, people work overtime or we borrow them 
from a nearby jurisdiction. We just don't have excess capacity.
    I haven't thought this through adequately, but it seems to 
me that there is a need for the federal government to provide 
augmentation capacities for local police authorities for 
Homeland Security. They can't train adequately because they're 
taking time off from being on the beat to go off and do 
training for Homeland Security exercise, and so then there 
isn't the sustainable power.
    Maybe there's a possibility of putting together a program 
that both provides federal support to state and local police 
authorities that is useful on the Homeland Security front and 
also becomes your augmentation that you could use for 
international emergencies. Again, I have not thought about it 
adequately, but I think we need to be creative in this area, 
and I would certainly be pleased to work with you and the 
committee in any way as you think your way through it.
    The Chairman. I thank you for that thought today because 
that's going to be the purpose of our hearing. This is a tease 
from all of us, with some additional increments about this 
situation.
    I think that your point about the attitude adjustment is 
critically important because sometimes all of us going about 
our official work believe that we are the persons that are 
supposed to do that work. Suddenly we're talking about people 
who are doing other things in life, but who have lots of 
talents. How do we integrate those talents together with the 
professionals and the people who come to work every day at the 
State Department or the Defense Department or so forth? It's a 
very, very important situation.
    We're all seeing that the war against terrorism is 
something different. Nation-building is different. We weren't 
intending to get into this. As Mr. Dobbins pointed out, it was 
a conscious effort after Somalia not to get into any place 
else. We were sort of dragged, kicking and screaming, into 
this. Now we see the failed states situation. If we don't, at 
our peril, we're going to see people organize out, using these 
places to attack us, as they did on 9/11.
    Let me just ask about Haiti, because Ambassador Dobbins 
brought that as a topic that we had not anticipated, even when 
the hearing was set. Here you are, and we're on this threshold 
here.
    Some of the press accounts of Haiti make these points: The 
year in which we last restored President Aristide, we got him 
back into power again. In the ensuing days, weeks, and months, 
Aristide understandably was opposed to retaining the army as it 
was in Haiti. As for the policing, there was a feeling that 
these were people who had been disloyal or would not be very 
loyal to him, so they were effectively discharged.
    The dilemma is that filling the vacuum there never quite 
occurred. As you pointed out, Ambassador, we were there for a 
while, but on the other hand, we felt we'd achieved what we 
wanted to do and left. As we come through this, I don't want to 
minimize all the particulars because they are important.
    Let's say that some of the old army people who were 
discharged were still very unhappy about Aristide, or perhaps 
other police-types decided to cause some trouble. These were 
described by press accounts in the last two or three weeks as 
being maybe 200 in number, maybe 300 people. This is in the 
whole country. They approached whoever is policing a small town 
in Haiti and said to these folks, ``You know, if you think 
about it, it'd be just as well if you get lost. You just sort 
of move away from whatever your duties are because we really 
don't want to take you on, but we're fully capable of making 
life miserable.''
    So these police decide that they, for the time being, will 
just not do their policing. It's not a question of clashes here 
and there. People just sort of disappear from the work.
    As a matter of fact, some of the people who were employed, 
apparently by President Aristide, were commercially-employed 
people. There are security agencies in this country and 
elsewhere that provide security. A good number are now employed 
by businesses in Iraq. The businesses employ security agencies 
to help them in what seems to be a very insecure situation, not 
very well policed.
    Without making any judgment about the reliability of all 
these people, the fact is that at the end of the day, in Haiti, 
it does not appear there are very many reliable people in the 
policing area, whether they are in the small towns and they 
disappeared, or whether they are the old types who are against 
Aristide, or whether that are the people whom Aristide hired, 
and who might not have proved very reliable.
    I would just say, for the sake of argument, that when 
Secretary Powell called me on Sunday morning, after he'd been 
working on this problem for seven and a half hours, he pointed 
out that President Aristide very much wanted his help, that is, 
the help of Secretary Powell. He wanted safety. He wanted a 
plane. He wanted a destination. There are a lot of postmortems 
about all this, but nevertheless the reason that he wanted 
these things was that the security that he felt that he had 
from the people whom he had employed apparently was very 
unreliable, to the point that it might not exist fairly 
shortly. So the policing thing is really of the essence here.
    Many have said: Okay. Let's say that's right. Here we go 
into Haiti, again. Try to stabilize with the Marines, with 
other nations offering help, with the Europeans, with the 
Caribbean nations, suggesting they might do some policing 
temporarily. yet the training from scratch of a security 
situation for the nation of Haiti is a daunting task.
    This may be something beyond the type of thing we're 
talking about in the stabilization force in our bill. In 
reflecting on Haiti, I simply see a pretty wide-open question 
as to how you begin to approach this, and whether we are 
prepared now. I wonder whether we're of a mind to stay the 
course and to take on that responsibility.
    If we don't, you're back to the situation of ten years ago, 
and some government that is sort of on their own again, and 
sort of looking over their shoulder, wondering if is there 
somebody who is going to protect them if a few hundred people 
come along?
    Do you have any thoughts as to how our legislation is 
applicable to that kind of situation, as opposed to Iraq, which 
we've said is sort of one-of-a-kind? The Haiti situation might 
be more common, as time goes on, in various places that have 
never really had very strong security or humane police, and so 
forth.
    Ambassador, do you have some thoughts about that?
    Ambassador Dobbins. Well, what happened in the mid-90s is 
that Aristide abolished the army, which had been both 
incompetent and abusive, and we built up a new police force. 
And for a while it was a, by Haitian standards, quite competent 
and quite untainted force, probably the best institution in 
Haiti, briefly. It was a force of about 5,000 men who had been 
newly recruited, newly trained. Over time it became a seasoned 
and reasonably professional force.
    The Chairman. You were in government at that time, and you 
saw all of this going on?
    Ambassador Dobbins. Right. The problem is that we didn't 
put comparable efforts into building up the judicial or----
    The Chairman. I see.
    Ambassador Dobbins [continuing].----corrections system, and 
so you had a reasonably competent police force that had no 
place to try criminals and no place to hold them, so it was 
left with the dilemma when it caught criminals that it either 
had to punish them extrajudicially or let them go. Either of 
which, you know, inevitably corrupts a police force no matter 
how honest it might begin. The police force in Haiti gradually 
descended to the level of Haitian institutions as a whole.
    The reason that Aristide was left bereft of support was 
first and foremost his own mistakes and misbehavior. I don't 
want to understate that. But it was also that he lacked 
resources to deliver on his election promises, and increasingly 
he lacked resources even to maintain the weak and effective 
institutions of the state. As the result of which he became 
even more dependent than he might have wished on informal 
sources of power. Because the formal sources of power had 
ceased to be available, and they ceased to be available because 
we and every other country in the world had cut off all 
assistance to Haiti after 2000.
    The decision to cut off assistance to Haiti after 2000 was 
entirely justified and equally unwise, in my judgment. And it 
just shows that sometimes you have to make difficult choices 
with unpalatable outcomes at either end. This time I hope that 
we will take the current police force and build it back up. 
Many of the people who left it are probably available to come 
back, and some of the leadership that we managed to install 
probably can be recruited again. But it is important that we 
put an equal effort into the judiciary and correction systems 
so that the police force can be supported by the other elements 
of a rule of law process.
    In terms of the legislation and what the additional 
capabilities that are provided would allow, I think it would, 
first of all, obviously allow some rapid funding for this in 
the short term, while the administration considered what type 
of supplemental it might require for the contingency so that 
you could get started right away.
    The second is, I think that we--the U.S. government--having 
had a decade of experience in building police forces, are 
probably more or less adequately staffed to build police 
forces, but not adequately staffed to build judiciaries or 
corrections institutes. And so some of the 250 people and some 
of the reserve people that would be recruited under this and 
made available would be people, I think, in those areas.
    The Chairman. I think that's a very important contribution 
to this testimony. Certainly it is an insight that I have not 
heard expressed so forcefully: that it was not just simply the 
police business, but the police, that, as you say, may have 
fallen into corruption, in order to enforce the thing, the 
police had to either kill the suspect or release the suspect. 
So it's an impossible predicament, even if you have good police 
training. That needs to be a part of our understanding of this.
    We've discussed the police aspect of it, but then as we get 
into nation-building, the institution building, some other 
parts of the body politic become critical too. This, then, 
leads skeptics to say, there you go again; you're going to be 
around for a long while.
    This is a complex business, when you talk about building 
institutions. And yet with nation-building it's sort of hard to 
avoid that subject. A lot of institutions are pretty important, 
if there is, in fact, to be much of a nation-state, as opposed 
to a hiatus, and then failure again, and some lapse back into 
this.
    Doctor Hamre, do you have a thought about this?
    Dr. Hamre. I agree very much with Jim's analysis of Haiti. 
I'd visited the police training academy down there in the mid-
90s, and I agree very much with his analysis.
    We had, to the extent that we were able in Haiti to do 
either work on the judicial system or on the penal system, it 
was done on an ad hoc basis through individuals, civil affairs 
officers who tried on the side to do it. It was not a sustained 
effort. It needs to be, and I think that should be an important 
omen of your bill.
    Dr. Binnendijk. Sir, I know that you confront arguments all 
the time that we shouldn't do nation-building. But it seems to 
me that September 11th demonstrated one clear thing, that we 
can't tolerate incompetent or irresponsible nation-states.
    The Chairman. Yes.
    Dr. Binnendijk. We can't tolerate it anymore. It is now an 
immediate national security risk us, if it exists. So like it 
or not, we're in the difficult process to fix that, and it 
seems to be we can't do it by ourselves. It'd be foolish to do 
it by ourselves. We need allies to help us do that. So I think 
it's all connected to a much larger picture. I think you're 
seen that. You've been in the forefront of this for years.
    But I think we have to answer those who have legitimately 
asked why should we be doing this all the time. We can't avoid 
it now. It's in our interest. We have to do this, and we have 
to find partners and allies to help us do it.
    The Chairman. You offered another good argument that I 
think Senators and the public can understand, and that is that 
the whole networking, as you've described it, of transnational 
crime is a background for terrorism. These people, who are not 
necessarily nationalists but are involved in their own self-
betterment through these dubious means, are part of the way 
money comes to the terrorists, if they are not terrorists 
themselves in perpetrating their crimes. That's something other 
than state-to-state relationships. There is this whole murky 
background of people involved, and it is a strange combination 
of communication and transportation networks, whether we're 
talking about how al Qaeda is funded or anybody else. We're 
finding that it's a tough struggle as a country.
    I have been in hearings, some behind closed doors, some in 
front of the doors, in which it's very hard for our Treasury, 
and our immigration services, and our military and our 
intelligence and so forth, for all of them to cooperate, share 
files, and so forth. And for good reason. We're interested in 
civil liberties of Americans, the invasion of privacy of 
innocent people. As you become more adept at all this data 
mining, some of these issues rise to the floor, as they should. 
There are institutional barriers in which people have said, 
this is our province; and I've been here for 30 years, by 
golly, and I know how to do it. So we're back to that problem.
    With this crime and with the terrorist networks and so 
forth, as you've said, we can't afford to leave these vacuums 
of authority where these people take advantage of the fact that 
the police aren't very good, or are corrupt, or there isn't a 
judicial system, or there are not the other deterrents that 
these societies generally have to stop these things.
    Now, you know, we must discuss how we illustrate this in 
ways that all of us as legislators and the public as a whole 
have to support. But I think this is the pattern that we're 
looking at here, in trying to authorize the State Department to 
be a nucleus leadership and then recognizing, as all of you 
pointed out, that there were many other agencies, and that 
there are many other committees of this Senate that have 
jurisdiction. Our own diplomacy, with all of our colleagues and 
all the hang-ups that we have, staffs of committees and so 
forth, have to be looked at too. We have to help reorganize 
ourselves as a government for the kind of things that we face 
that are not as categorical, perhaps, as in the past.
    Let me just ask, just to pluck one of these off. What would 
be the importance of having an Agriculture or a Commerce 
Department component? What sort of people might be recruited in 
this reserve, or should we look for people? Should we go to 
Iowa State or Purdue or some place like that and ask if people 
are prepared to serve their country from time to time? Or, 
likewise, should we go to the banking community or the 
investment community or--I'm just brainstorming again.
    How do we identify these people? How do we identify our 
program to begin with, if these are not only welcome, but 
necessary? Do they have to be components of a successful state? 
Do any of you have any thoughts about that?
    Dr. Hamre. Well, sir, from the time when I was over in 
Iraq, you walk down to the palace or the CPA headquarters and 
there's a sign, you know, the Agriculture Ministry, you know, 
or the Irrigation Ministry. I mean, we needed to find people 
across the board who had expertise, you know, in these skills.
    The Chairman. Yes.
    Dr. Hamre. And so I don't think this is hard for us to do. 
I mean, all of us live in a world of networks. We are 
constantly bringing people. I'm in a think tank. I've got 
hundreds of people that we're reaching across. I could find you 
20 agricultural experts within a day. So we know how we can do 
that.
    You want to give a reliable structure where they know they 
can plug in. I mean, most of the experts come in, but they 
don't know how to plug into a larger picture and into an 
integrated plan. That's why your legislation is important. 
That's why you have to have this planning cadre that gives you 
strategic plan and organizational skills, a standing 
capability. You can't make that up on the fly. We've been 
making it up on the fly.
    You're going to find lots of people in this country that 
are perfectly happy to cooperate and participate, if they know 
how they can plug in and their efforts can be coordinated in a 
meaningful way. You are going to need people from Agriculture, 
you're going to need people from Commerce.
    Banking people. Right now we're having to set up a banking 
system in Iraq. You've got to have that expertise. That's not 
resident inside the federal government.
    So, sir, across the board we need that, but at its core we 
need the planning, the strategic planning cadre that you plan 
to create in your bill.
    The Chairman. When you issued the Hamre Report, I can't 
recall whether you got into that aspect after you surveyed 
Iraq. As to the recruitment of these people, would you please 
report back some of your thoughts and language there?
    Dr. Hamre. Sir, we put special emphasis on the need to get 
a consistent effort to pool resources inside the federal 
government. We weren't doing very well at that. And we still, 
frankly, are challenged. I don't believe that Ambassador Bremer 
has had more than 60 or 65 percent of his strength that he was 
authorized to have.
    The Chairman. Yes.
    Dr. Hamre. I mean, it's inconceivable to me. This is the 
largest demonstration of America's might or weakness, you know, 
by how well we do this, and to let him not be staffed has been 
just unacceptable.
    The Chairman. And he may very well conclude his service and 
still be only at two-thirds strength.
    Dr. Hamre. That's exactly right.
    The Chairman. But then on July 1 or, as he's pointed out to 
me and others, maybe by June 1, the group of people that are 
going to be in our mission, in our embassy, has to have been 
found. According to press accounts, a lot of people are 
volunteering for this service. Maybe this is the largest 
embassy effort we have ever had anywhere in the world. I'm 
wondering whether all the disciplines that we're discussing 
will be represented there. I'm not privy to who all is part of 
this business, and maybe it would be appropriate for us to try 
to find out through a hearing. This may still be nation-
building and one of a kind, but it's very important that it 
succeed.
    Yes, Dr. Binnendijk.
    Dr. Binnendijk. As the process continues and you get into 
the nation-building phase, the Agency for the National 
Development does have close ties with many of these sectors. I 
think the problem is more the immediate post-war period. It's 
kind of the problem that Jay Garner faced in the immediate 
post-war period as he tried to pull together his team. There 
was not much depth there. And so what you need is not--I mean, 
the capabilities a year later, you can draw them. What you 
really need is sort of the couple of months or even weeks right 
at the end of the high-intensity conflict period or the 
collapse of the failed state.
    The Chairman. There are different phases of this, in other 
words, yes.
    Dr. Binnendijk. Yes. And so what I'm trying to stress is 
the importance and the immediacy of the first phase where at 
least with Jay Garner's experience, as I watched it, those 
capabilities were very thin.
    The Chairman. Yes, the day after.
    Dr. Binnendijk. Yes. And so the day after you need to have 
these capabilities to draw on very quickly. Agriculture, across 
the board, they're not there.
    The Chairman. And police certainly.
    Dr. Binnendijk. Yes.
    Ambassador Dobbins. I think it's important to recognize, 
however, that what we're looking for are people who have skills 
in governance. What they need to do is know how to run a 
government program. In the first instance, they need to know 
how to run an American government program, how to implement 
policy within an American government framework; and 
secondarily, they need to know how to help the host government 
run its own program.
    So if you're looking for people with agriculture, you're 
not looking for people who know how to run a farm, you're 
looking for people who know how to run an agricultural support 
program, who know how to get seeds to farmers. They don't have 
to know what you do with them when you get them there, but they 
have to know how to run a program. Similarly, in the banking 
area you need to know people who know how to run a central bank 
and how to create a bureaucracy that can regulate a banking 
system. Someone else can go find people who know how to run a 
bank.
    And so you are looking for a rather precise class of people 
because these are not skills that they can learn after they 
come on board. So you're going to be recruiting largely within 
people who have had federal government experience or perhaps to 
some degree state government experience in administering 
programs and in teaching others how to administer programs. 
That's what you're looking for.
    Additionally, except in extraordinary circumstances like 
Iraq, most assistance is actually delivered through contracts. 
In other words, AID contracts with an NGO or a for-profit 
company, and they actually provide the advice or assistance to 
the Ministry of X. And that system facilitates recruiting. I 
mean, those contractors then go out and recruit the people, and 
they're making a profit. And they do it, and it works quite 
well. What you need are people who can administer that 
contract, who can make sure that the contractor is living up to 
his commitments, is doing the best job possible.
    So those are the skills you're looking for. It's a rather 
precise set of skills, which does span all of the functional 
areas we've talked about, but from the perspective I've 
suggested.
    The Chairman. Do any of you have any concluding thoughts? 
I've raised the questions that I had.
    Dr. Hamre. Just to say thank you.
    The Chairman. If not, we will look forward to your 
continuing support and consultation on this effort. We very 
much appreciate your coming today, and your forthcoming 
answers, as well as your creative suggestions.\1\
---------------------------------------------------------------------------
    \1\ The National Council on Disability submitted its report 
``Foreign Policy and Disability: Legislative Strategies and Civil 
Rights Protections To Ensure Inclusion of People with 
Disabilities,''for inclusion in the hearing record. A copy of that 
report will be maintained in the committee's permanent files.
---------------------------------------------------------------------------
    Having said this, the hearing is adjourned.
    Ambassador Dobbins. Thank you, Mr. Chairman.
    Dr. Binnendijk. Thank you, sir.

    [Whereupon, at 11:01 a.m., the hearing was adjourned.]

</pre></body></html>
